<html>
<title> - 9/11 HEALTH: WHY DID HHS CANCEL CONTRACTS TO MANAGE RESPONDER HEALTH CARE?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
 9/11 HEALTH: WHY DID HHS CANCEL CONTRACTS TO MANAGE RESPONDER HEALTH 
                                 CARE? 

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                     ORGANIZATION, AND PROCUREMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 22, 2008

                               __________

                           Serial No. 110-100

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                              ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

45-628 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

  Subcommittee on Government Management, Organization, and Procurement

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      BRIAN P. BILBRAY, California
CHRISTOPHER S. MURPHY, Connecticut   TODD RUSSELL PLATTS, Pennsylvania,
PETER WELCH, Vermont                 JOHN J. DUNCAN, Jr., Tennessee
CAROLYN B. MALONEY, New York
                    Michael McCarthy, Staff Director



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 22, 2008.................................     1
Statement of:
    Libretti, Joseph, ironworker, Local 580, Pennsylvania; Kevin 
      Mount, retired heavy equipment operator, NYC Department of 
      Sanitation; Cynthia Bascetta, Director, Health Care, 
      Government Accountability Office; Jim Melius, Chair, 
      Advisory Board, WTC Medical Monitoring and Treatment 
      Program; and Frank Fraone, operations chief, Menlo Park, 
      CA, Fire Department and Federal Urban Search and Rescue 
      Team.......................................................    16
        Bascetta, Cynthia........................................    27
        Fraone, Frank............................................    57
        Libretti, Joseph.........................................    16
        Melius, Jim..............................................    44
        Mount, Kevin.............................................    20
Letters, statements, etc., submitted for the record by:
    Bascetta, Cynthia, Director, Health Care, Government 
      Accountability Office, prepared statement of...............    29
    Fraone, Frank, operations chief, Menlo Park, CA, Fire 
      Department and Federal Urban Search and Rescue Team, 
      prepared statement of......................................    60
    Libretti, Joseph, ironworker, Local 580, Pennsylvania, 
      prepared statement of......................................    19
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............     8
    Melius, Jim, Chair, Advisory Board, WTC Medical Monitoring 
      and Treatment Program, prepared statement of...............    48
    Mount, Kevin, retired heavy equipment operator, NYC 
      Department of Sanitation, prepared statement of............    23
    Nadler, Hon. Jerrold, a Representative in Congress from the 
      State of New York, prepared statement of...................    14
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................     3


 9/11 HEALTH: WHY DID HHS CANCEL CONTRACTS TO MANAGE RESPONDER HEALTH 
                                 CARE?

                              ----------                              


                       TUESDAY, JANUARY 22, 2008

                  House of Representatives,
            Subcommittee on Government Management, 
                     Organization, and Procurement,
              Committee on Oversight and Government Reform,
                                                      New York, NY.
    The subcommittee met, pursuant to notice, at 10:35 a.m., at 
the Daniel Moynihan Federal Courthouse, 500 Pearl Street, New 
York, NY, Hon. Edolphus Towns (chairman of the subcommittee) 
presiding.
    Present: Representatives Towns and Maloney.
    Also present: Representatives Nadler and Fossella.
    Staff present: Velvet Johnson, counsel.
    Mr. Towns. The committee will come to order. As we begin 
our business here today, we should remember back 6 years ago 
when toxic clouds of smoke from the World Trade Center hung 
over lower Manhattan, Brooklyn and other parts of the city. 
Everyone in America has their own story about that day, where 
they were, what they were doing, what they were thinking or 
feeling on September 11, 2001. But for the emergency responders 
and recovery workers who worked in and around Ground Zero that 
day, it does not just haunt them. For some, it is killing them.
    Six and a half years since the attack, we now know that the 
toxic environment created when the towers collapsed exposed 
first responders, rescue and clean-up workers to a range of 
dust, smoke and toxic pollutants. These heroes from across the 
Nation are still dealing with the long-term health effects from 
9/11. Many are suffering from disease and disability and 
require medical care. It is our duty as a nation to make sure 
that they get the care they need. Unfortunately, the Federal 
effort to provide health care to these workers has been plagued 
by false starts, incomplete programs and funding shortfalls.
    In Congress, we have been fighting for permanent, long-term 
health care for 9/11 workers. My colleagues here today--
Congresswoman Maloney, Congressman Nadler, of course along with 
Congressman Fossella--wrote a bipartisan bill that would 
guarantee health care for these heroes, and I want to salute 
them for that. Last year I held three oversight hearings to 
bring attention to this issue and to hold the administration 
accountable for its lack of progress. Last year Congress 
approved more than $100 million of funding for 9/11 health care 
programs, and last fall the administration solicited bids for a 
center that would manage medical pharmacy care for 9/11 workers 
nationwide. So we thought we were finally on the right track.
    Then in December, the administration pulled the plug on 
this contract just 2 days before the bids were due. It is 
really a baffling decision and they can't even get their 
stories straight for why it happened. First they said that the 
bidders were confused. That is very interesting. Well, we have 
talked to bidders who had invested a lot of time and money in 
their proposals, and they said they were ready to go and they 
were not confused. Then the administration said there wasn't 
enough funding. Well, how could they know that before the bids 
came in? And what about the $108 million that Congress 
provided? Let me tell you, this does not make any sense and 
that's why I called this hearing today to get the bottom of it.
    And let me inform those that say let's stall. Well, let me 
tell you, we are not going to go away. You might be able to 
stall, but I want to let you know, there is an empty chair at 
the witness table today because you refused to come. Well, let 
me just say what we are going to do next if you refuse to come: 
we are going to ask for all the memos, we are going to ask for 
all the telephone records, we are going to ask for the e-mails, 
we are going ask for the letters and then we are going to ask 
another question: Was the White House involved in this 
decision?
    We are going to raise these questions, because we are not 
going to let people suffer who came in and responded in a very 
efficient manner to protect the lives of so many--and then we 
are just going to leave them and neglect them. I will not stand 
for it as the Chair of this committee. And, of course, I want 
to let the word go forth that we will not stand by and allow 
you to stall. We are going to get the information that we need.
    As Chair of the Government Management Subcommittee, I try 
to be fair. I give people the benefit of the doubt. I try to 
give the administration the benefit of the doubt. But, I've 
done oversight on a lot of programs and I'm sorry to say that 
the HHS program for 9/11 health care is one the worst managed 
programs that I have ever seen in my 26 years of being in the 
U.S. Congress.
    The lack of action for these heroes as sheroes and the 
bureaucracy they've had to go through is simply unacceptable. 
It is a disgrace and it must be stopped.
    I would like to unanimous consent for members of the New 
York City Delegation not on the subcommittee to participate in 
today's hearing.
    Hearing no objection, it is so ordered.
    [The prepared statement of Hon. Edolphus Towns follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. I will now yield to my colleagues for their 
opening statements. No more than 5 minutes each, starting with 
you, Congresswoman Maloney, who has really been very involved 
in this issue, and, of course, had done a remarkable job of 
making certain that it stays alive and that people are treated 
fairly. I salute you for that this morning, Congresswoman 
Maloney.
    Mrs. Maloney. Thank you, Chairman Towns, for those kind 
words, and, really, for your leadership in convening this 
important hearing today. And to my colleague, Jerry Nadler, for 
his steadfast work on this issue.
    Chairman Towns, this is the fourth hearing that he has 
held, and he is determined to get answers, and I congratulate 
your leadership and your determination. I do want to thank the 
members here that will be testifying. Many of them are among 
the thousands of responders who came to New York City with a 
minute's notice. They were here quickly to help our city, to 
help try to save lives, to help in recovery. Yet, the 
administration, HHS, with 2 week's notice could not get anyone 
on a shuttle or an airplane or here in any way to answer 
questions and to provide the appropriate testimony. So I 
congratulate you, Mr. Chairman, to being determined to get the 
answers to the questions and to hold them accountable for their 
actions.
    I also really very much want to express my gratitude to the 
U.S. Court of Appeals Second Circuit. They have generously 
agreed to provide us this room for this hearing and to the 
Moynihan Courthouse. As many of you may know, more than 70,000 
Americans have signed up for the World Trade Center Health 
Registry because they are concerned about their exposure to the 
deadly toxins on 9/11. About 60,000 of those registered hail 
from the tri-State area and most have access to health clinics 
operated by the local Centers of Excellence. What many of you 
may not know is that the other 10,000 registrants live outside 
of the New York City area and these Americans come from every 
State in our union, including Alaska and Hawaii. And, perhaps 
even more amazing, 431 of our 435 congressional districts 
nationwide, they all had people working at Ground Zero.
    Today we are joined by three responders who live outside 
the New York metropolitan area, and these three heroes were all 
at Ground Zero. They all have health challenges from their 
service and they all need the help that a national program 
would provide.
    Chief Fraone from Menlo Park, CA, who led urban search and 
rescue teams from California at Ground Zero, will tell his 
story and talk about the difficulties he had in getting help, 
treatment, or just plain getting information he needs to take 
care of his health concerns.
    Joseph Libretti, an ironworker from Pennsylvania, who spent 
the first months responding to the attack and is now seriously 
ill; in fact, over the weekend we were afraid he wouldn't be 
able to come because of health challenges from his exposure at 
Ground Zero. He can no longer work and has to travel 100 miles 
one way to see his doctor here in New York.
    We will also hear from Kevin Mount, a former heavy 
equipment operator with the New York City Department of 
Sanitation, who worked on the pile and had to retire to Florida 
on disability due to injuries caused by his service, and who 
now must come back to New York City several times a year to see 
his doctors at Mt. Sinai.
    These responders represent thousands of rescue and recovery 
workers who came from around the country to help New York and 
are now in need of help from the Federal Government.
    However, just before Christmas, right before Christmas, the 
Bush administration abruptly terminated a Request for Contracts 
to set up a World Trade Center Business Processing Center which 
would have been the hub of a national program to provide care 
for Americans who have 9/11 related illnesses.
    I used to Chair the Contracts Committee on the City Council 
and I work on contracts on this committee for the Federal 
Government. Never in my entire history of studying and working 
on accountability in contracts have I heard of one terminated 2 
days before it was due. The administration's abrupt and ill-
advised decision essentially ended the hope that sick 9/11 
responders from around the country could any time soon get 
long-term, federally funded medical monitoring and treatment 
without traveling to the New York City area. The Request for 
Contracts for the national program was first put out in October 
and the final December 19th deadline to submit contracts was 
fast approaching when they just pulled the plug and put it out 
of commission.
    Senators Clinton and Schumer and the entire delegation sent 
a letter to Health and Human Resources Secretary Michael 
Leavitt looking for answers about this abrupt change in course. 
The letter is available at the sign-in desk.
    The reasons given at the time just did not make any sense. 
First they said there wasn't enough money. Now if that were 
true, it would mean that the Department failed to ask for 
enough money. Yet, the fact is that the money was there. We 
just put in $108 million for 9/11 health care, which added to 
the $50 million we approved earlier that year.
    They also said their was bidders' confusion. We talked to 
several of the bidders and they said they weren't confused at 
all. They wanted to submit their contract. We wanted to know 
why the decision was made and who made it and what alternative 
plans the administration may have in store if they don't 
reinstate their Request for Contracts. We had asked for an 
answer before Friday, December 21st. We did not get one. It is 
now January 22nd and we still do not have an answer.
    And as Chairman Towns stated, he asked Secretary Leavitt to 
testify today, or at least have the common courtesy to send 
someone to do so, but apparently neither he, nor any of the 
thousands of people who work for him, could spend a few hours 
of their time for the heroes of 9/11. It seems that while 
thousands came to New York with no notice in our hour of need, 
no one at HHS could get on a shuttle or a train and be here 
today with 2 weeks' notice to answer the questions of the sick 
responders.
    Dr. Melius will have to explain the situation to us, since 
the government decided not to show. And, as I mentioned 
earlier, the consequences of the administration's decision will 
be felt not just in States like California and Florida, but 
right here in New York as well. And, while this committee deals 
with government contracting and grants all the time, I think I 
need to explain in greater detail the problem that we may be 
facing at the local level because of the administration's 
decision.
    My time for opening statements is up. I obviously feel very 
passionate about this, so I will put the remainder of my 
comments in the record, because we need to get to the witnesses 
and hear their stories.
    Mr. Towns. Thank you, Congresswoman Maloney.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Towns. Now I yield to Congressman Nadler, who has been 
working very hard on this issue for quite some time. I want to 
thank him, too, for helping keep this alive, because people are 
suffering and, of course, we have an obligation to respond, to 
make certain that we do everything that we can to alleviate 
that suffering.
    Congressman Nadler.
    Mr. Nadler. Thank you. Let me begin by thanking you, 
Chairman Towns, for holding this hearing today and for the 
unanimous consent of the committee for permitting me, a non-
committee Member, to participate up here in this hearing 
regarding the Federal Government's continued malfeasance in the 
years after September 11th.
    I am outraged to have to say it again, that the Bush 
administration has turned its back on the heroes of 9/11.
    When the World Trade Center collapsed on September 11, 
2001, people came from every State in the Nation to aid in the 
massive rescue and recovery effort at Ground Zero. FEMA 
deployed 20 Urban Search and Rescue task forces from 14 States, 
some as far away as California, Arizona, Texas and Florida, to 
dig through the rubble looking for survivors.
    The first responders--firefighters, police officers, 
emergency medical personnel, ironworkers and others--did this 
amidst hundreds of tons of asbestos, nearly half a million 
pounds of lead in the air, and untold amounts of glass fibers, 
steel and concrete that formed a massive cloud of toxic dust 
and smoke. Now, 6 years later, many of these selfless men and 
women are sick as a result of their work at Ground Zero. They 
are scattered across the country, many hundreds or thousands of 
miles away from the medical experts who are best qualified to 
treat them. Others who once lived in New York City have moved 
away, often because their illnesses were so severe.
    For six long years, since shortly after 9/11 we have fought 
every single day to force the Federal Government to acknowledge 
its own responsibility and to provide health care for those 
people who have become sick from 9/11. After six long years of 
shirking its responsibilities and denying the obvious facts, it 
seemed like the Bush administration was finally poised to take 
the first step toward establishing a coordinated treatment 
mechanism for rescue and recovery workers who live outside the 
New York metropolitan area. The department of Health and Human 
Resources issued an RFP, Request for Proposal, for a World 
Trade Center Business Process Center, which would manage the 
enormously complicated task of medically monitoring people 
outside the New York area who are suffering from 9/11 related 
illnesses.
    But now the administration has dropped the plan. It says 
Congress has not provided enough money. If saving the lives of 
first responders requires more funds, the administration should 
have asked Congress for more money. Look what it did. In the 
budget request it made in January of last year, a year ago now, 
the administration asked for only $25 million when the 
estimates of the costs were far higher. They asked for only $25 
million. They said this was a placeholder; that is to say, that 
they would come in with a larger figure when they figured out 
what that figure should be.
    Needless to say, they were lying. They never came in with 
another figure. That placeholder was the only figure they ever 
came in with. Congress, Carolyn, myself, others worked and got 
the House of Representatives and the Senate to vote $52\1/2\ 
million last spring. Senator Clinton got another $56 million, a 
total of $108 million. The administration asked for $25, we got 
$108 million. When it stood at $52 million, the administration 
said we are $56 million short of being able to fund this 
proposal. We got another $56 million dollars because of Senator 
Clinton. They still killed the proposal.
    The administration shows itself to be hypocritical. It 
wasn't a shortage of money. We got them the money and they 
still killed the proposal and withdrew the RFP. The 
administration is yet again ignoring its obligation to the 
living victims of 9/11. The White House is again revictimizing 
the victims of that tragedy. The White House is making itself 
complicit with the terrorists in victimizing the victims who 
live here and elsewhere in the country.
    Furthermore, providing health care to sick first responders 
across the country is only one of several programs that must be 
put in place if we are to fully recover from the environmental 
effects of 9/11. We recently fought tooth and nail to provide 
funding for the Centers of Excellence, who are doing such an 
incredible job of providing care for people with a myriad of 9/
11 related diseases.
    And as I said, we got $108 million of this year's budget--
the first money to be provided in a regular appropriations 
bill--and for the first time this Federal funding will be 
available not only to first responders but to everyone, 
residents, students and area workers, whose health was affected 
by 9/11.
    But this is not enough. Last year, Congresswoman Maloney 
and Congressman Fossella and I introduced 9/11 Health and 
Compensation Act, which provides comprehensive health benefits 
to everyone whose health was affected 9/11, and we still need a 
comprehensive testing and cleaning plan to ensure that no one 
else will be harmed by contamination in their homes, schools 
and offices in Manhattan, Brooklyn, Queens and Jersey City, 
which have never been properly decontaminated.
    The World Trade Center Business Process Center is a crucial 
piece of providing health care to thousands of people across 
the country whose health was affected by 9/11.
    As a Congressman who represents this area where the World 
Trade Center once stood, I saw firsthand the incredible work 
the first responders from all over the country did in the wake 
of 9/11. We have a moral obligation to the living victims of 9/
11. I urge the administration to honor its commitment and move 
forward with this program.
    And I would simply observe, I don't believe this is the 
worse managed program. I believe this is the most deliberately 
sabotaged program by the administration. Dr. John Agwunobi, who 
was an excellent appointee, he tried to do his job; he is no 
longer there. Dr. Howard tried to do his job. He has been 
summarily undermined, we don't know by whom. And, that's why 
they won't show up today.
    We have a record of the lies, evasions, deceit and absence, 
and that is why I think that Chairman Towns is going to have to 
utilize the subpoena power in order to get to the bottom of 
this and begin to get to the truth of why this administration, 
why the Bush administration wants the victims of 9/11 to 
continue suffering without adequate health care.
    Thank you. I yield.
    Mr. Towns. Thank you very much, Congress Nadler.
    [The prepared statement of Hon. Jerrold Nadler follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. At this time I would like to ask the witnesses 
to please stand. We swear all our witnesses in.
    Please raise your right hands.
    [Witnesses sworn.]
    Mr. Towns. Let the record reflect that all witnesses have 
been sworn.
    Let me give a little background on the witnesses. Joseph 
Libretti is an ironworker. He worked on Ground Zero to recover 
body parts and cut steel from September 11th to December 2001. 
He worked 90 hours a week. In 2002, he was diagnosed as 
suffering from chronic lung disease and severe post traumatic 
stress disorder. Now, he is too sick to work and has to travel 
more than 100 miles from Pennsylvania to Mt. Sinai to get 
medical care.
    Kevin Mount was a heavy equipment operator with the New 
York City Department of Sanitation. He operated equipment at 
Ground Zero and Fresh Kills landfill from September 11th to 
February 2002, when he was rushed to the hospital unable to 
breathe.
    Frank Fraone is fire chief in Menlo Park, CA who came to 
Ground Zero after 9/11 as part of Federal Urban Search and 
Rescue Team. He worked at Ground Zero for several weeks and now 
has chronic breathing difficulties.
    Cynthia Bascetta is currently the Director of Health Care 
Issues for the Government Accountability Office. She has a 
wealth of experience in terms of analyzing and reporting on 9/
11 issues and other related issues relating to our Nation's 
health.
    Dr. Jim Melius is an occupational health physician and 
epidemiologist. He currently serves as the Chair of the 
Steering Committee for the World Trade Center Medical 
Monitoring and Treatment Program.
    I will ask all the witnesses to summarize the testimony in 
5 minutes, because I don't think we have the lights--oh, we do 
have the lights. Well, let me just explain the lights. It 
starts off on green, and then it goes to yellow. Yellow means 
sum up and red means stop. We've got the lights. OK, so we will 
start with you, Mr. Libretti. Please proceed; 5 minutes.

     STATEMENTS OF JOSEPH LIBRETTI, IRONWORKER, LOCAL 580, 
 PENNSYLVANIA; KEVIN MOUNT, RETIRED HEAVY EQUIPMENT OPERATOR, 
   NYC DEPARTMENT OF SANITATION; CYNTHIA BASCETTA, DIRECTOR, 
  HEALTH CARE, GOVERNMENT ACCOUNTABILITY OFFICE; JIM MELIUS, 
  CHAIR, ADVISORY BOARD, WTC MEDICAL MONITORING AND TREATMENT 
 PROGRAM; AND FRANK FRAONE, OPERATIONS CHIEF, MENLO PARK, CA, 
    FIRE DEPARTMENT AND FEDERAL URBAN SEARCH AND RESCUE TEAM

                  STATEMENT OF JOSEPH LIBRETTI

    Mr. Libretti. Congressman, I thank you for the pleasure of 
being here. I want to thank you for your help.
    Mr. Towns. Pull the mic a little closer to you, please.
    Mr. Libretti. Thank you for your support and your help in 
our problems.
    My name is Joseph Libretti. On September 11th, I was a 
rescue and recovery worker volunteer. I resided in 
Pennsylvania, and arrived at the World Trade Center the morning 
of the attack. We immediately started looking for survivors. We 
were provided paper masks, which we used. We were told the air 
quality was safe all along and that there were no problems.
    I soon learned my brother Danny, a firefighter, responded 
too, and now he was missing. We recovered him a month later. As 
a result, I have lung disease and airway disease and suffer 
from post traumatic stress syndrome. I had attempted suicide. I 
had to leave my job as an ironworker, resulting in numerous 
financial hardships.
    Basically, I don't think of myself as hero. Most of the 
people I worked with don't think of themselves as heroes. The 
people that died that day were the heroes, because they knew 
what was happening. Every year there is a parade and the 
workers are told, ``Don't march with the firemen. March over 
here.'' That's all well and good. And I understand that most 
people don't really understand what was going on down there.
    But, this is my medication. This is what I take every 
morning: three different breathers, a travel one if it gets 
worse. I have good days, and I have bad days. People trying to 
help the rescue workers are going out of their way. I don't 
understand what the big problem is. We have boys dying 
overseas, why? In my opinion, because of September 11th.
    We send billions of dollars to other countries. Are you 
going to tell me that you can't remember the people that did 
the work? I don't know who lied and I don't care. As a result, 
the complications damaged my health, my family. I don't have 
insurance coverage for my wife who can't go to the doctor who 
has heart problems. That's one of those little glitches, but 
that's my problem.
    For 5 years, I had to fight to get medical coverage for 
myself. When I couldn't get things, I had to put it on my 
credit card, so now I am in more debt. Traveling to New York, 
just to come to this hearing, arrangements were made by people 
for this hearing, I appreciate it. But, to give you an idea: I 
took a bus. I started out at 4. The bus was packed. I waited 
for the next one. I had to take it. No seats. I finally got on 
a bus at 7:30 and stood to come here and got to Manhattan at 
10:30.
    Other days, I get up, I have a medical appointment, I don't 
want to go through that. I don't even care. I shouldn't have 
to. The paperwork and the runaround I get, it is like no one 
knows what is going on.
    I found out about a program that was put in by people like 
Senator Maloney and other Congressmen is over and done, and we 
don't know about it. I don't see what the big problem is with 
this government today. It is supposed to be our government. We 
are supposed to protect Americans. We are not heroes. We are 
Americans. Americans went down to help Americans. All we are 
asking is for to you do the right thing by us.
    I would like to know why they didn't show up or why they 
can't provide services. Basically, I don't think it is fair at 
this point. Six years later and you are still trying to fight 
for rights that you should have. I don't think I should have 
had to fight for 3 years to get workers' comp, because if you 
can't get one thing, you can't get the other. Without the help 
of Senator Maloney and other people, I probably would be 
flipping, and I don't think this is right.
    I am not a hero, I just want to be taken care of the way I 
tried to take care of other people. And everyone I know that 
worked with me feels the same way. We are not asking you for a 
handout. We are not asking anybody for a handout. I want what 
is fair. I want to be able take care of family like I have 
always done.
    My quality of life has gone down. My family's quality of 
life has gone down. They are entitled to coverage; I can't 
afford it. My kids are entitled to go to college; I can't 
afford it. That's my problem, but my problem was made by 9/11. 
Those little glitches, they caused bigger problems. Somebody 
should know what to do. It is 6 years later. How much longer do 
you need?
    Thank you.
    Mr. Towns. Thank you, Mr. Libretti. Thank you so much for 
your testimony and thank you for being here as well.
    [The prepared statement of Mr. Libretti follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Mr. Mount.

                    STATEMENT OF KEVIN MOUNT

    Mr. Mount. Good morning. Thank you for allowing me the 
opportunity to speak on behalf of the injured disabled 9/11 
workers and to address the need for the continuation of the 
World Trade Center Medical Monitoring and Treatment Program.
    I began working as a heavy equipment operator for the city 
of New York Sanitation Department in 1980. I worked primarily 
at the Fresh Kill landfill in Staten Island. When the World 
Trade Center was attacked, I was 47 years old and just a few 
years away from enjoying my retirement. Just prior to the 
attack, I had had a complete physical and blood work and was 
found to be in excellent health. I was physically fit and 
enjoyed participating in a number of sports primarily with my 
two sons who were 19 and 20 years old at the time.
    On September 11, 2001, after the Twin Towers collapsed, I 
was asked to participate in the rescue and recovery efforts at 
Ground Zero. It was with a profound sense of patriotism and 
compassion for the thousands of victims and their families that 
I immediately agreed to help in whatever way I could. Needless 
to say, the task was monumental.
    I arrived at Ground Zero on September 12th, and the amount 
of destruction caused by the brutal attack was overwhelming. In 
addition to the collapse of the World Trade Center towers, 
numerous other buildings at the site were destroyed or badly 
damaged. The streets appeared war torn with tons of debris 
spread as far as I could see. The air was thick with dust and 
smoke from the surrounding fire, made breathing very difficult. 
And although there has been much speculation regarding the 
availability of respirators and other Hazmat gear, I was 
offered nothing more than a paper dust mask.
    I worked 14 hours a day, 7 days a week. The state-of-the-
art decontamination tank built on the site was used strictly by 
the privileged workers. Never anyone from my department. The 
dust picked up by us while we worked, came home with us at the 
end of the shift.
    My primary responsibility while at Ground Zero was to 
remove debris that had been hand searched by other first 
responders and transport it several blocks away where it was 
eventually shipped by barges and by trucks to the Staten Island 
landfill. Two weeks after the attack, I and my coworkers were 
transferred from Ground Zero to Fresh Kills to continue the 
search and recovery operation. I had expected working 
conditions to improve from Ground Zero, but in actuality, they 
were much worse. 1.4 million tons of World Trade Center debris 
was processed at the landfill at a rate of approximately 5,000 
tons a day. The air was so thick with concrete dust and other 
particles that there were times that I couldn't see more than a 
couple of feet in front of me. Despite requests for protective 
gear, I continued to work with nothing more than a paper dust 
mask.
    On October 26, 45 days after the attack, heavy equipment 
operators where issued respirators. By this time, I and most of 
my coworkers were already sick with continuous coughing, sinus 
problems, gastric problems, nose bleeds, etc. I continued to 
work 12 hours a day, 7 days a week. My first day off was 
Thanksgiving, 72 days after the collapse of the World Trade 
Center. If I am not mistaken, my second day off was Christmas.
    While at the landfill, I was assigned to work in a 
restricted, spreading debris from Building 7. Once it was 
spread, workers from different city, State and Federal agencies 
would sift through it for evidence and personal property, etc. 
When they were done sifting and searching, the layer of debris 
was removed and another layer was spread. Before its collapse, 
Building 7 had been a temporary morgue and included in its 
debris numerous body parts. The machine that I had been 
assigned to work with had been at Ground Zero since 9/11 and 
was covered inside and outside with dust. It was an old machine 
and not equipped with proper air filtration system and was 
neither cleaned nor decontaminated before I began using it.
    Although I had been coughing since sometime in September, I 
had begun to feel extremely sick and I suffered from intense 
weakness, fatigue and headaches, shortness of breath and 
difficulty breathing. The coughing became relentless. On 
February 19, 2002, I was brought to the emergency room of our 
local hospital and was admitted for difficulty breathing, 
extreme fatigue, a burning sensation in my trachea and a 
temperature of 103. I was treated with IV antibiotics and 
steroids and received daily lung treatments. I was diagnosed 
with asthma, acute Hepatitis C and sinusitis. The discomfort in 
my trachea was determined to be burns from the caustic 
materials I had been inhaling. I remained in the hospital for 5 
days and left knowing that my life would never be the same. I 
knew I was too sick to continue working and my dreams for the 
future were irrevocably changed.
    When I returned home from the hospital, my life was in 
turmoil. I had just been diagnosed with major health problems 
and had to find a way to accept it. It wasn't easy. For the 
first time in my life, I had to rely on daily medications and 
inhalers to breathe. I was inundated with doctors appointments, 
lab appointments and test appointments. Adding to my problems, 
my sinuses were impacted due to the heavy volume of dust that I 
had been breathing and the pressure from the impacted sinuses 
caused my left eardrum to collapse, leaving me with diminished 
hearing and constant ringing in my ear. I became distraught 
with the knowledge that had protective equipment been afforded 
me, I would still be in good health. I started feeling 
depressed and later became filled with rage. I now suffer from 
psychological trauma, which to this day I continue to take 
medication for.
    Initially I placed my health problems in the hands of local 
specialists. Although they were competent physicians and 
leaders in their fields, they had no idea how my involvement in 
the 9/11 aftermath could have caused such major health 
problems. They had no knowledge of the toxins released into the 
air after the collapse of the towers and were unable to 
adequately answer my questions. I began to feel like a lab 
experiment and that my care was based on trial and error.
    Mr. Towns. Mr. Mount, could you summarize.
    Mr. Mount. Well, you guys went past--I'm sorry.
    I began to feel like a lab experiment. Sometime in early 
March, my wife testified on my behalf at a hearing held by 
Congressman Nadler and listened to testimony given by Dr. 
Steven Levin, Chairman of the World Trade Center Medical 
Monitoring Program. She spoke with him regarding my condition, 
and he agreed to see me.
    I thank God every day for his presence in my life. If not 
for his care and concern for my well being, I don't know where 
I would be today. He not only treated my pulmonary and gastric 
problems, he referred me to doctors within the program who 
addressed my other needs. For the first time since I had become 
ill, there was coordination of health care among my health care 
professionals.
    Do you want me to just hand this in?
    Mr. Towns. Yes. Your entire statement will be included in 
the record.
    Mr. Mount. OK, so you want me to stop?
    Mr. Towns. Yes, so we have time to ask some questions later 
on. Thank you.
    [The prepared statement of Mr. Mount follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Ms. Bascetta.

                 STATEMENT OF CYNTHIA BASCETTA

    Ms. Bascetta. Mr. Chairman and members of the subcommittee, 
thank you for inviting me to testify today about the continuing 
need for HHS to improve health services for World Trade Center 
responders including those who reside outside the New York City 
metropolitan area.
    As you know, thousands of responders came from across the 
country and risked their lives in the aftermath of the 
September 11th attack. Like local responders, they need 
screening and monitoring to determine whether they have 
suffered any adverse health effects, and many of them also need 
treatment for illnesses that resulted from their rescue, 
recovery and clean-up activity.
    We have reported several times about problems in the 
program established for these responders, including the 
national program intended to set up a network to provide 
services comparable to those available in the New York City 
area. In 2007, we found that NIOSH had once again taken steps 
toward expanding the availability of screening and monitoring 
for the national program but its efforts were not complete. 
Given its stop and start history, we were concerned that HHS 
might not succeed in establishing and sustaining a smoothly 
functioning national program.
    Accordingly, we recommended that the Secretary take 
expeditious action to ensure the availability of health 
screening and monitoring services for all people who responded 
on September 11th, regardless of where they reside. In its 
comments on our draft report, HHS was silent about this 
recommendation and the Department has still not reported on 
whether it concurs, and, if so, how it intends to implement our 
recommendation.
    The most recent solicitation to set up a business process 
center could have been a vehicle to begin to implement our 
recommendation and HHS may yet take other actions consistent 
with our recommendations; however, the fulfillment of the 
solicitation, especially without any other plan in place, 
raises serious questions about how HHS intends to prevent the 
same kind of service interruptions that have characterized its 
past performance, most importantly, how HHS plans to ensure 
continuous screening and monitoring now provided by QTC when 
its contract expires in June 2008, and how will HHS ensure 
treatment services for responders in the national program after 
March 2008 when Red Cross funding is due to run out.
    In previous testimony and in our ongoing work for you and 
others on lessons learned from September 11th response, we 
noted, among other things, the importance of standardized exams 
and data collection for all responders to ensure the strongest 
epidemiological research base as well as equitable access to 
the best treatment across the country for all responders who 
may experience deterioration in their health.
    While HHS could still achieve this in a national program, 
the steps they appear to be taking in this direction in the 
solicitation have now been, once again, placed on hold. It is 
incumbent upon the department to explain whether this approach 
would have implemented our recommendation, and, if so, what it 
intends to do instead.
    That concludes my statement. I would be happy to answer any 
of your questions.
    Mr. Towns. Thank you very much, Ms. Bascetta.
    [The prepared statement of Ms. Bascetta follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Let me just indicate the fact that we have been 
joined by Congressman Fossella. We will hear from him a little 
later on.
    Dr. Melius.

                    STATEMENT OF JIM MELIUS

    Dr. Melius. Thank you.
    I am Jim Melius, an occupational health physician who 
currently works for the New York State Laborers' Health and 
Safety Trust Fund. Prior to this job, I spent over 15 years 
working for the governmental agencies, first for NIOSH, the 
National Institute for Occupational Safety and Health, and then 
the New York State Department of Health. While working for both 
of those agencies, I had experience developing, preparing and 
reviewing government contracts and grants, including contracts 
for occupational medical services of the type covered by this 
program.
    I also for the past 4 years served as chairman for the 
Steering Committee for World Trade Center Medical Monitoring 
and Treatment Program. This committee meets monthly to oversee 
and review the program, so I am very familiar with the 
activities and what is happening with the current program that 
is underway.
    On October 23rd of last year, CDC, on behalf of NIOSH, 
released a solicitation for a contract to provide various 
administrative and medical services for this program. A meeting 
with prospective bidders was held in New York City on November 
7th. Applications were due on December 19th. As we all know, on 
December 13th, CDC abruptly canceled the solicitation, giving a 
variety of different reasons for its decision. This 
cancellation has potentially serious consequences on the 
ability of the Federal Government to provide the medical 
services needed by thousands of responders and other groups who 
worked at the World Trade Center site in the aftermath of 
September 11th.
    I would like to briefly review the contents of the 
solicitation and the potential consequences of the cancelation 
for the many responders and other workers whose health has been 
endangered by their work at the World Trade Center.
    Currently, the program is funded through grants through a 
variety of institutions, including the New York City Fire 
Death, Mt. Sinai and a number of other academic institutions to 
provide monitoring and treatment for the services. This 
solicitation from CDC and NIOSH was directed at outside firms. 
It was designed to supplement the current grants program, and 
it would do so by establishing a Business Processing Center 
that would administer reimbursements to medical institutions 
provided throughout the country who were providing monitoring 
or treatment services as part of this program.
    It would encompass all of the current providers with the 
exception of the New York City Fire Department. This outside 
entity would also help locate providers across the country who 
provide these services. One of the problems that has been faced 
by the various entities involved--and we have been able to 
document this--has been difficulty in finding providers who are 
experienced and have the capability to help people from all 50 
States that are involved in this program.
    The program also provides pharmaceutical benefit services 
for people in the program and would also provide a number of 
other informational and member services that would assist in 
the program. As you have already reviewed, the CDC abruptly 
canceled the solicitation just 6 days before the applications 
were due. They gave a variety of reasons for that. In my 
testimony, I outline some of these reasons and really find them 
to be very weak and they really don't adequately explain the 
reasons for this, especially given the consequences of 
canceling this contract.
    One reason was that funding wasn't available. As you have 
all already said, the full appropriation was passed only a few 
weeks after this cancelation, so the money would have been 
available. It is not unusual for the Federal Government to put 
out a solicitation for a contract in anticipation of moneys 
becoming available. If moneys aren't available, then they can 
go ahead and cancel that particular contract or not decide to 
award it.
    There were also concerns raised about whether this program 
should be--whether the Federal money should be what we call the 
first payor. Currently, other than for workers' compensation 
payments, the Federal Government covers all the cost of medical 
care for World Trade Center related conditions. CDC was raising 
issues of whether people's health insurance shouldn't be 
involved. For a variety of reasons that have been testified to 
before the various committees, that doesn't make sense for the 
program. It would lead to serious deterioration in services for 
the program.
    Most important and what I would like to spend my remaining 
time on is really the consequences of canceling this 
solicitation. As has been already said, the main impact of the 
cancelation will be on services for national responders. That's 
the several thousand people across the country who are 
currently getting monitored or receiving treatment through this 
program. Their treatment is being funded not by the Federal 
Government, but by the Red Cross.
    The Red Cross has decided they will no longer support this 
program. They have already done it for many years and they have 
good reason to turn it over to the Federal Government at this 
point in time. Their money runs out in March. They may extend 
it an extra month to two, but for the several hundred people 
who are currently receiving treatment through that program, 
their funding will cease. They will no longer be able to get 
treatment unless they are willing to come to New York City to 
receive it from one of the institutions that are currently 
funded.
    In fact, under the program, the organization arranging that 
care will have to send letters to all the responders in the 
program explaining to them that they will no longer be covered. 
And this will be very disruptive of their care and I think, 
will have serious medical consequences for many of the 
responders.
    Funding for the monitoring of people living outside the New 
York City area is also jeopardized. As GAO has already said--
Cynthia said--that funding is through a contract with an 
organization called QTC. That is done through a modification of 
the current grants program to Mt. Sinai. That will need to be 
renewed for a large amount of money. It is also probably not 
adequate to cover all current national responders. So it could 
very well be that by June of this year there will be, in 
addition to no treatment for national responders, there will be 
no monitoring for national responders. The examinations that 
they need to monitor their health to detect these conditions 
will not be available.
    There are also some informational needs for the program to 
understand what the money is being spent on, what medical 
treatment and how much does it cost. Better information has 
been asked for by both HHS and by Congress. That information 
will not be available. The pharmaceutical benefits for the 
current responders are handled through each participating 
institution now. So there are six separate programs. That's not 
very efficient and setting up a single pharmaceutical benefit 
manager to handle everybody in the program would be much more 
efficient and more beneficial for the participants. They 
wouldn't have to travel as for to get prescriptions filled and 
it would be much easier for them.
    Finally, there is, I think, the whole issue of what happens 
to the current program even in the New York City region. We 
have the institutions that provide that coverage. Their 
contracts or their grants were 5-year grants, they run out in 
roughly mid 2009. If the original funding program was not 
adequate, particularly the treatment parts of payments that 
were required for these institutions providing treatment, so 
these grants need to constantly be modified to provide 
additional moneys.
    There are limitations. There are rules within the Federal 
Government in order to foster competition and make sure that 
the government money is being spent carefully and wisely, that 
usually limit how much modification can be done, particularly 
in the last year of the program. And if nothing is done, if 
these programs are just left in place, we face the possibility 
that modifications that are needed to provide for treatment, to 
pay for treatment, will not be made, and, therefore, these 
institutions will no longer be able to provide treatment.
    We've already had one instance, it was a New Jersey Medical 
Center where that has taken place, where it required a 
modification for them to be able to continue treatment. We face 
that very shortly at Mt. Sinai Medical Center also. And we will 
face it, I think, several more times before these current 
grants run out.
    We also have the issue that the current appropriations 
provides funding for residents and workers of the downtown area 
who are not eligible for the current program. That will require 
some sort of a new solicitation. If the current administration 
is not going to take any steps at all for any new grants or 
contracts for this program, then there is a budget on how will 
that money be made available to Bellevue, Elmhurst and the 
other institutions involved to provide monitoring and treatment 
services for the residents, students and those workers.
    So I think with the failure of, you know, the cancelation 
of this solicitation, has really a dramatic potential for 
totally disrupting the program. We could face a crisis. I don't 
know when. I hope it doesn't occur, but we can very easily 
foresee at some time in the next several months, we will face a 
crisis, where there will not be adequate funding available at 
one of the institutions to provide the monitoring and 
treatment, where the patients are being treated at that 
facility will have to be told that they need to either rely on 
their health insurance or find some other source of 
reimbursement for their care. And, I think this will have very 
serious consequences for, obviously, the overall program as 
well as for the health of the participants.
    In summary, again, I would repeat some of what I said at 
the last hearing with you, Chairman Towns. We need a 
comprehensive solution to this problem. We need for the 
administration to take the steps over the next few months to 
make sure that the program can continue until some new 
arrangements can be made. We definitely have a crisis coming 
with the responders living outside the New York City area. 
There needs to be some arrangements made to provide them with 
treatment as well as with monitoring.
    But even within the New York City area, we need to make 
sure that we can keep the program going, while we can establish 
both new arrangements for the current funding as well as a more 
permanent solution be put in place. I greatly appreciate all of 
your efforts in working, not only in keeping the present 
program going, expanding it to include the residents and 
downtown workers, but also looking for a permanent solution 
that will provide the kind of care and treatment that these 
people deserve.
    I think that what we have heard already from the responders 
who came here today--you see how disruptive this will 
potentially be for them. We must take all steps that we can to 
avoid this.
    Thank you.
    Mr. Towns. Thank you, Dr. Melius. Thank you very much for 
your testimony.
    [The prepared statement of Mr. Melius follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. Mr. Fraone.

                   STATEMENT OF FRANK FRAONE

    Mr. Fraone. I want to thank you, Congressman Towns, 
Congresswoman Maloney, Congressman Nadler, Congressman Fossella 
and the House of Representatives for supporting the issue of 
medical screening and workers' compensation for rescue workers.
    My name is Frank Fraone, I am a 27 year veterans of the 
Menlo Park Fire District. Currently I hold the position of 
Division Chief in charge of Operations. I am also the program 
manager for the Homeland Security, FEMA, Urban Search and 
Rescue Team based out of Menlo Park, CA, California Task Force 
3. I have been a member of California Task Force 3 since 
inception in 1991. As a member of California Task Force 3 and 
FEMA Urban Search and Rescue Incident Support Team, I have been 
deployed to many State disasters including the Northridge 
earthquake, Oklahoma City bombing, the California floods and 
the World Trade Center. I also was deployed to Hurricane 
Georges, Hurricane Charlie, Francis, Ivan, Dennis, Katrina, and 
most recently, the Greensburg, KS Tornado.
    Each event in itself is significant to those affected and 
to the rescue workers who responded. For me, one event stands 
out overall because of the impact on my fellow firefighters and 
the lasting medical concerns that affected me.
    On September 11, 2001, I was already deployed on a large 
scale wildland fire in Calaveras County, CA. I returned home on 
September 14th only to be deployed out on September 16th to the 
World Trade Center on the FEMA Incident Support Team as Branch 
Operations Chief. Prior to deployment, I received a medical 
exam. At that time I had no medical ailments, injuries or 
sickness.
    I spent the next 12 days, 16 hours a day on the rubble pile 
at the World Trade Center. I was assigned nighttime operations 
between Buildings 4 and 5 in the West Sector. I was charged 
with coordinating the efforts of the both FEMA search and 
rescue teams, international rescue teams, State rescue teams, 
ironworkers with my colleague next to me that I worked on the 
pile with, and liaison with the Port Authority FDNY. I spent 
the majority of my time on the pile or between 4 and 5 at my 
command post. At about day 10, I started losing my voice, 
coughing and experiencing prolonged headaches.
    After returning home, I was experiencing chronic coughing 
and shortness of breath. I was examined by three different 
physicians over a 6-month time period, placed on a variety of 
medications and breathing treatments. Eventually Dr. Joe 
Zammuto diagnosed me with lower respiratory disease. I 
continued the chronic coughing for 9 straight months before it 
subsided.
    The shortness of breath and coughing are exacerbated when 
exposed to smoke, dust or strenuous activity. I currently have 
two different types of inhalers that I use when these episodes 
occur.
    Of the 67 members who responded from California Task Force 
3, 70 percent experienced illness, including shortness of 
breath, chronic coughing, pneumonia, nose bleeds and long-
lasting severe colds. A few months after returning, our then 
program manager Chief Schapelhouman heard about the Mt. Sinai 
Medical Monitoring Program. It took Chief Schapelhouman over a 
year before a phone call was returned to him. It took a second 
year before he could convince the program coordinators to 
accept us and allow a local physician to perform the 
evaluations.
    Originally the only facility that they would allow us was 
in Napa, CA. Napa is a minimum 2-hour drive from our home 
facility. Eventually agreements were made with a local health 
care provider to perform the annual evaluations. I and many of 
our teammates currently participate in medical monitoring 
evaluation. Due to HIPPA issues, it has become increasingly 
more difficult to obtain the actual number of participants in 
the program.
    In the Federal system approximately 1,414 FEMA and Urban 
Search Rescue members responded to the World Trade Center to 
support the search and rescue efforts. Approximately 592 
responders opened Federal workers' comp claims. Many of these 
claims were closed out in just 2 months. Most of the claimants 
were frustrated and confused in working through this process. 
Many of the claimants abandoned the Federal workers' comp 
efforts and used their own health care provider. However, 
Federal workers' compensation only covers 66 and 2/3 percent of 
your claim.
    On December 20, 2007, the Board of Directors of Menlo Park 
Fire Protection District passed a resolution declaring members 
of the District who respond to a Federal disaster will be 
covered under our department's workers' compensation and 
insurance. This will assure our department members are covered 
the same whether injured in Menlo Park, CA or New York City.
    Chairman Towns, we need a national program that will 
provide responders who came to New York and were exposed to 
toxins at Ground Zero the medical monitoring and treatment we 
need. It is very disheartening to hear that the administration 
seems to be standing in the way and not working to get us the 
help we do need.
    We need not only health care, we also need to be 
compensated for our injuries. I know that Representative 
Maloney, along with you, Chairman Towns, and Mr. Nadler and Mr. 
Fossella, are working on pushing legislation H.R. 3543 that 
will make sure that we have long term monitoring and treatment 
and be compensated for our injuries for everyone, including 
myself and those who came from across the country to help. This 
legislation is supported by the national firefighters union as 
well as AFL-CIO.
    It is very important to myself, as well as the many rescue 
workers who responded to the World Trade Center, to continue 
the medical monitoring program. Although acute medical problems 
have been well documented this morning, the long-term effects 
are uncertain so we need a stable national program.
    I also want to mention two other bills, H.R. 4158 and H.R. 
4183 that will, also, help support and protect specifically 
Urban Search and Rescue workers like myself who were injured 
while on deployment.
    In closing, it has been my distinct honor and privilege to 
serve the members of my community and the citizens of the 
United States in their times of greatest need. I hope that the 
Members of Congress will see fit to protect those who give 
their lives to protect and serve others.
    Thank you, sir.
    Mr. Towns. Thank you so much for your testimony. We really 
appreciate your coming all the way from California. Thank you 
so much.
    [The prepared statement of Mr. Fraone follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Towns. At this time before we go on to questions, I 
would like it give Congressman Fossella an opportunity for an 
opening statement.
    Congressman.
    Mr. Fossella. Thank you, Mr. Chairman. I will submit my 
formal remarks for the record. I would just like to thank the 
witnesses for coming once again. Thank you for holding this 
hearing, as well as my colleagues, Ms. Maloney and Mr. Nadler, 
being forceful advocates for putting in place what should have 
been put in place a long time ago, a comprehensive national 
plan.
    Thank you, Chief, for coming across the country. Thank you 
for your service.
    Mr. Fraone. Thank you, sir.
    Mr. Fossella. The tragedy of 9/11 is a big book and there 
are many great chapters and there are going to be some sad 
chapters. And this is a sad, sad chapter in the history of 
September 11th; that is, the failure of HHS to adequately and 
appropriately step up and serve the needs of those who were 
willing to give their life on September 11th and the days and 
weeks that followed.
    As has been mentioned, the possibility, the potential of a 
giant hole in which hundreds of thousands of individuals could 
fall into unless and until HHS comes forward--they should 
consider calling themselves Human Services, because the health 
aspect of their mission right now seems to be missing.
    As we have stated repeatedly, rather than being dragged 
into, in this case a courtroom, to provide a solution to the 
problem, we find them running and hiding. And it's one thing to 
disagree with perhaps a suggestion as to how to solve the 
problem and to just say no may not be a nice public relations 
ploy, but to just say no to the men and women who risked their 
lives and now need our help is not an appropriate position for 
the Department of Health and Human Services.
    So it is our intention to keep this fire glowing. It is our 
intention to impress upon HHS and anyone else who will listen 
that we need a specific Federal mandate here, and I would just 
like to thank you for convening this, and thank you all for 
coming.
    Mr. Towns. Thank you very much, Congressman Fossella.
    And I would also like to recognize Rabbi Nederman and the 
class from Williamsburg, the Williams School. That is an area 
that was affected by 9-11 smoke. Thank you for coming as well 
and being part of this hearing.
    Let me just move along. I will begin with you, Ms. 
Bascetta. In 2004 you made recommendations to HHS, and in your 
statement today, you said that HHS has not yet responded to 
your recommendations.
    What is HHS's obligation to respond to your 
recommendations?
    Ms. Bascetta. The first opportunity to comment is when we 
submit the draft report to them. As I mentioned, they were 
silent. But after our report is issued to any agency that 
contains recommendations from GAO, there is a statutory 
retirement that is laid out in 31, U.S. Code, Section 720, for 
HHS to report to the Senate, Homeland Security, Governmental 
Affairs Committee, and to your full committee, House Oversight 
and Government Reform, and they have 60 days in which to make 
this response, so they are well overdue.
    They, of course, don't need to agree with our 
recommendations, but if they don't, they need to say why they 
do not, and if they do concur, they need to lay out how they 
intend to implement the recommendations.
    Mr. Towns. Thank you.
    Can you discuss the importance of a national program and 
describe the current and future effects of the continuing 
problem in providing services for responders outside the New 
York City area?
    Ms. Bascetta. Yes. As you have heard from many of the other 
witnesses, the importance of covering the entire population who 
responded can't be understated, from both a research 
perspective, but, more importantly, from the perspective of the 
equity of access to screening, monitoring and treatment, if 
it's needed.
    We are very concerned about the precedent that it would set 
for any future disasters to have such an ad hoc and 
uncoordinated approach, to taking care of the responders who 
risked their very lives and their health.
    The other factor here, as has also been mentioned, is that 
many of the responders who live here will be retiring either 
for health reasons or other reasons and will be moving outside 
of the New York City area. So the impact in terms of the growth 
of the population on the monitoring and continuing to stay 
abreast of health effects to provide the best treatments 
possible will only grow overtime, so it's very important that 
this program be established.
    Mr. Towns. Thank you very much for your work and thank you 
for your comments as well.
    Chief Fraone, I am concerned because if firefighters learn 
about the treatment of those who came to the rescue, they learn 
about how you are being treated, do you think that they will be 
eager to continue with an Urban Search and Rescue Team? Will 
they still want to do this when they hear about how you have 
been treated?
    Mr. Fraone. That's our No. 1 concern right now, is to 
sustain the workers in the system, because of the workers' 
compensation issue and the coverage. We are losing firefighters 
and people are reluctant to join the team because of these 
issues that occur after the fact. It is an issue, a major 
issue.
    Mr. Towns. I am concerned if they hear how you are being 
treated, if they would be interested in continuing to provide 
this kind of service. And, of course, that would be the worst 
things that could happen.
    Mr. Fraone. We are very dedicated men and women throughout 
the country. We have 5,000 members in the Urban Search and 
Rescue System and one of our difficulties right now is 
sustaining the system because of these particular issues of 
compensation, medical claims, the followups and just the 
effects of Federal funding.
    Mr. Towns. Mr. Libretti, you have to come all way back from 
Pennsylvania to New York for treatment?
    Mr. Libretti. Yes, I did, until recently when I got 
Medicare, Social Security Medicare. I saw a pulmonologist in 
Pennsylvania and that became confusing, too, because he would 
send me bills to be paid and I would say ``Why do I have to pay 
the bills?'' After a while it becomes more difficult.
    I get my medication from the Injured Workers Pharmacy, but 
that's only the medication from 9/11. And because there are 
glitches, they don't cover this. My diabetes medicine was not 
covered by 9/11. So up until I got Medicare, it was costing my 
$560 a month for pills, and that's on me. And when I had my 
union coverage and I worked, I had no problem with coverage, 
medical, dental, whatever. Now I am covered, but my family is 
not. I don't think that's fair.
    Basically, I'd rather keep my family covered than me. My 
son is 16. He had braces when--it gets so frustrating because 
at 9/11, my daughter was in college, first year she got braces, 
the union would pick up half that cost. After 9/11, because I 
couldn't work, her braces had to come off. That cost falls on 
me. It's my daughter.
    Same thing with my 16 year old son, that cost falls on me. 
From taking all this medication for the last 6 years, all my 
teeth fell out in the last 3 years. I go to another doctor, he 
says, ``Yeah, that medication has side effects.'' You know 
what, I don't have dental. These things are not covered. No one 
addresses them.
    It is not just victims, it's their families. They lose all 
their protection and you are told that's a glitch. It falls 
between the cracks. So if people get frustrated, it is like 
everything else, what do you do? You talk to this person. You 
talk to that person. No one has answers. It's depressing and it 
is not fair.
    I am not saying there are not people out there trying to 
get something they don't deserve, but when people have medical 
records, why are they being jerked around basically? There is 
no reason for that. I can understand people trying to get 
over--that's the world. But when you go to your doctors and the 
doctors from Mt. Sinai say, ``You have chronic lung disease 
from 9/11. You have this from 911,'' and now you have to fight 
to get everything else that you should get. Why did I have to 
fight 3\1/2\ years to get workers' comp?
    If it wasn't for Congresswoman Maloney and Scotty Hill and 
some other people that were dedicated to the 9/11 workers. You 
have the mayor spending $225 million fighting people putting in 
claims for money that was issued to give workers' comp from 9/
11. That don't make sense.
    Yes, there is fraud in everything, but you know what, there 
is legitimacy too, and when you just white wash the whole 
thing, it ain't right.
    Mr. Towns. Let me thank you again for your service and 
thank you for your commitment and dedication. This is the 
reason why HHS should be here. They need to hear the stories. 
They need to hear what is really going on.
    And it really bothers me, the fact that they are not here. 
And when I listen to Ms. Bascetta in terms of how they have not 
responded to her, I need to make it very clear, HHS, we are not 
going to go away. As long as we hear stories like this, people 
being mistreated, you can be assured that we are going to be 
there for them. And, I am telling you, whatever it takes to 
bring you to the table, we are going to bring you to the table. 
And, I just want to make that clear so they will know that we 
are not going to go away.
    They think the stalling tactic is going to work. It is not 
going to work. You are talking about people are dying; you are 
talking about their life, their family. I am not going to walk 
away from it.
    On that note, I yield to my colleague, Congresswoman 
Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman, for that very strong 
statement. In line with your comments, at the State of the 
Union, which is this coming Monday, my colleagues and I on this 
panel have given our State of the Union tickets to sick workers 
from 9/11 so that their presence at the State of the Union 
address to Members of Congress, to the administration, to 
remind them that men and women, our heroes and heroines, are 
still sick.
    When I tell people that I represent constituents and that 
there are people out there like the three panelists today that 
risked their lives and their health to help New York, to help 
save lives of others and to help us recover, and that they are 
sick, do not have health care, they can't believe it. They 
can't believe that the wealthiest and strongest country in the 
world is not providing health care to the men and women who 
rushed to save lives on 9/11.
    Instead of fighting to provide health care, we see the 
administration fighting to end the program. Why else would they 
pull the Request for Proposal that sets up the business center 
that would provide the care? So I would like to ask the three 
responders--first, I would like thank you for your service and 
for your sacrifice and for being here today, but I would like 
to ask you if you think the response from the Federal 
Government has been adequate.
    And I will start with Mr. Mount, Mr. Libretti and then 
Chief Fraone.
    Mr. Mount. Well, as far as the Federal Government goes, the 
Victims Compensation Fund was probably the best run program or 
agency that I have come up against. Everybody else is built to 
send you away, they don't want you and they want you to just go 
away. I mean, I have gone to workers' comp I think it was 3\1/
2\ years. I am still--well, you are asking me Federal?
    Mrs. Maloney. Federal.
    Mr. Mount. I'm sorry.
    The Victims Compensation Fund I thought was handled with a 
lot of dignity and a lot of respect. You have the proof and 
they accept it. But I don't see anything. All I hear is people 
are cutting funds off. Everything that they do, if you cutoff 
the funds off, there's another meeting; it's another month. But 
if you are dealing in true life, life goes on minute-to-minute 
and day-by-day.
    It's discouraging and it makes you feel angry and sorry 
sometimes that you involved yourself.
    Mrs. Maloney. Mr. Libretti.
    Mr. Libretti. My feeling with the Federal Victims 
Compensation Board--I didn't even know about it. The only way I 
found out about it was 2 weeks before the cutoff, and the 
doctor from Mt. Sinai happened to be on vacation. He called 
Scotty Hill to ask him if I knew about it, which I did not.
    When I found out about it, I was told to get a lawyer. 
Everyone I went to told me they wouldn't take the case. Plus I 
didn't have the rest of my medical records, so I filled out the 
papers. And from my understanding that I could read, if I was 
in the union and what I would have if I worked for the next 20 
years. And they sent me letters saying they were going to award 
me $60,000.
    I thought that was absurd, because the Federal Victims 
Compensation Board did not take in any mental treatment; that 
was not considered illness. But I am not a lawyer. I went 
through the whole process and I couldn't get a lawyer. No one 
would take the case. They did give me $118,000 and I called 
them and said, ``How am I going to live the rest of my life on 
$118,000?'' I got no answer.
    So I did what I thought would protect my family, I paid my 
house off. That lasted until 2006 when, finally, I had no more 
money and my understanding of everything was at least I would 
be compensated so that my family would have some sensibility of 
the life they had before this happened, which it was not.
    So now I have to play catch up. I put everything on credit 
cards and I run around in circles. Do I think I was treated 
fairly? No. Do I think inadequate information was given to 
rescue workers? Yes, because I didn't even know about half 
these programs and then they were cutoff. Then they open them 
up. Meanwhile the people tell you, ``Do that.''
    I was told not to come here today by people because they 
said the law case that I am on from 6 years ago could be 
jeopardized. I don't know. I am not here to make money because 
I want to get rich. I made a very good living as an ironworker, 
OK. When you are one-third of that, I guess I am not the 
mathematician I should be. I can't stretch $118,000 for 20 
years.
    Other people say I was nuts for going down the first time. 
I didn't know my brother was dead in the north tower at the 
time that I went down. I was on 172nd Street and Second Avenue 
and we watched the planes come over and we thought the first 
one was a joke. Then we watched the next one come over, and the 
one over Jersey hit the south tower and I watched the city go 
hysterical.
    I walked down there and stayed there for 3 months. I went 
home twice. I lived, ate and slept on that site. I was told the 
air quality was fine. There was no protective gear. October 
26th protective gear was issued, which was wrong. Wrong this, 
wrong that.
    You know what? If something happened tomorrow, they would 
be right back down there. Other people with families told me, 
``You jeopardized your family, your livelihood, for what? To 
get kicked in the face.''
    I am old school. I am not perfect, but I believe I am an 
American. I am not a hero and all the guys I know that I worked 
with, they don't want to be called heroes, because we are not. 
We are Americans. The heroes are the guys that died because of 
what happened on 9/11. The young boys that get killed every day 
in Iraq, those are heroes. We are just Americans. All we want 
is to be taken care of.
    Mrs. Maloney. We need to take care of you.
    Chief.
    Mr. Fraone. It reminds me of the large-scale insurance 
agencies that give you the run around, deny your claim until 
eventually you give up. One of the issues that plagued us was 
our team spent an additional $50,000 at that event for higher 
level respiratory protection for California Task Force 3. When 
we were denied reimbursement of that $50,000. Our fire 
department has eaten that, but we did provide a higher level 
than was recommended down there.
    The simple answer to your question, did the Federal 
Government do enough for us, the answer is no.
    Mrs. Maloney. Thank you.
    I would like to place in the record with unanimous consent 
the letter that my colleagues and I sent to Secretary Leavitt 
asking why he canceled this important Request for Proposal that 
would have gotten the money out through the Business Center to 
help people.
    Mr. Towns. Without objection.
    Mrs. Maloney. Dr. Melius, I would like to ask you if you 
could explain the difference between the proposed Business 
Processing Center, that contract, and the current contracts 
that are with the Centers for Excellence?
    Dr. Melius. Sure.
    The current arrangement for the Centers for Excellence, Mt. 
Sinai, is basically through a grant, where they, the Federal 
Government, provides money to these institutions for carrying 
out programs that provide medical monitoring and medical 
treatment for the World Trade Center responders. And so, they 
provide an overall level of funding and they approve, for 
example, in the clinics, rather than reimburse per visit as 
much as they reimburse by a certain number of doctors in those 
clinics providing treatment. If they have to go to specialists, 
they have ways of providing that, but basically setting up the 
programs in the institutions to provide that, which works fine 
within the institutions. There are some issues regarding the 
need for information on costs and so forth that are more 
difficult than those arrangements, but, overall, that process 
can work within the institutions. However, when people need 
care outside that institution, then there is no mechanism for 
providing that care or it's extremely difficult. So in that 
case, it is a lot easier and provides better flexibility. In 
some ways, there are better controls on reimbursement if it's 
done under a contract mechanism, which is the Business 
Processing Center.
    The Business Processing Center contract would have allowed 
them to set up an arrangement with any institution, hospital, 
medical practice or individual health care provider across the 
country to provide medical exams and to provide treatment for a 
variety of conditions.
    Under the grant program, that is extremely difficult, if 
not impossible to do for the Centers of Excellence. 
Particularly, treatment, because treatment involves so many 
different specialists, different types of care. You have to 
locate people in different parts of the country and there are a 
number of national businesses that are set up to provide that 
care for insurance companies trying to health the welfare fund 
that business trades unions have with their employers that 
provide flexibility to reimburse physicians and so forth across 
the country. So the contract would have given much greater 
flexibility, just much better information on individual 
services that were being provided.
    And, unfortunately, without that, as I have said, the 
treatment program for people outside of the New York City area 
is extremely difficult, if not impossible to set up. They 
needed other mechanisms. The Business Processing Center 
contract provided that mechanism. It cannot be provided by the 
Centers of Excellence. They tried to do the Centers of 
Excellence; it just does not work.
    Mrs. Maloney. Do you mean to say that without the Business 
Processing Center, someone unrelated to one of the Centers of 
Excellence, some government bureaucrat could just cut the money 
for these Centers for Excellence and deprive service to people?
    Dr. Melius. Absolutely. The other issue I raised is that 
with the grants, because this program has grown so much. When 
the original grants were given 5 years ago, they were really 
just for medical monitoring. Then the treatment money was 
provided.
    They did not envision the level, the amount of money and 
the level of services that would need to be provided. So those 
constantly have to be supplemented and modifications made to 
those original grants to continue to provide money. Every time 
you make that modification or change, you have to follow the 
rules of the bureaucracy, which are set up to prevent fraud and 
be fair in terms of competition and so forth. So the rules have 
good reason for them; however, they do limit the ability of 
NIOSH to continue to fund the programs and make these 
modifications that are needed.
    The current program this year, we are estimating for fiscal 
year 2008, just for the responders, not including residents and 
downtown workers and students, would cost something in the 
order of $215 million. The $180 million that was recently 
appropriated plus money already available would have covered 
that. I think it would have been adequate, would have been able 
to cover at least to start a program for residents and students 
and downtown workers also.
    Mr. Towns. Thank you.
    Congressman Nadler.
    Mr. Nadler. Thank you.
    Let me ask you, Ms. Bascetta, you said that the statute 
requires that the agency respond to your audit within 60 days, 
and the audit was completed when?
    Ms. Bascetta. July.
    Mr. Nadler. And they have not yet responded.
    Ms. Bascetta. They have not.
    Mr. Nadler. The 60 days was up in October?
    Ms. Bascetta. I don't have the exact date, but, yes, 
approximately.
    Mr. Nadler. What has been your general experience with 
Federal agencies? Do they generally reply within the 60 days?
    Ms. Bascetta. We don't always get the letter to GAO. The 
letters go to the Center for Government Affairs and the House 
Reform Committee, but we hear from them and they are more than 
often on time.
    Mr. Nadler. Would you say that this failure to respond by 
now is unusual?
    Ms. Bascetta. It has happened but it is not a typical 
situation.
    Mr. Nadler. So it's unusual?
    Ms. Bascetta. Yes.
    Mr. Nadler. And is there any mechanism that you or that 
anyone has to enforce them to respond.
    Ms. Bascetta. We do a repeat followup. The letter is not 
officially directed to us. It's directed to the two 
congressional committees.
    Mr. Nadler. So the congressional committees would have to 
followup?
    Ms. Bascetta. Yes.
    Mr. Nadler. Mr. Libretti, a number of questions from your 
testimony--and let me say that on behalf--I have no power, 
really, on behalf of the government, but, nonetheless, let me 
apologize. It is mortifying as a member of the Federal 
Government, albeit the legislative branch, not the executive 
branch, for me--every time we have a hearing to hear, every 
time I talk to a first responder, to hear the same shameful 
testimony of how we have victimized and continue to victimize 
people who are innocent and are, in fact, heroes, including 
yourself.
    Now, you said that you were told the air was safe to 
breathe.
    Mr. Libretti. Right.
    Mr. Nadler. Who told you that?
    Mr. Libretti. The officials that were monitoring the site.
    Mr. Nadler. Were they Federal officials.
    Mr. Libretti. State, Federal, I don't know.
    Mr. Nadler. And you were first issued protective equipment 
on October 26th?
    Mr. Libretti. October 25th someone brought in a trailer.
    Mr. Nadler. Before that, they were not available to you?
    Mr. Libretti. There was no need for it they said.
    Mr. Nadler. The same officials said there was no need for 
them?
    Mr. Libretti. There was nothing wrong with the air.
    Mr. Nadler. So when they testified to my subcommittee in 
June that Federal officials were constantly warning all the 
workers that the air was not safe to breathe, that they must, 
in fact, wear protection, and that the big problem was that the 
workers refused to wear respiratory protection even though they 
had people walking around to make sure they did it, this was 
not your experience?
    Mr. Libretti. Let me make this really perfectly clear. I 
was at the site 9/11. I was one of the first group of people in 
the site. Until the 18th, is my best recollection----
    Mr. Nadler. September or October?
    Mr. Libretti. September. Before that it was voluntary 
search and recovery, there was chaos, but controlled chaos. 
When they divided the site into four quarters and put four 
major companies in charge of clean-up, rescue and recovery----
    Mr. Nadler. On the 18th.
    Mr. Libretti. On the 18th.
    We could not be on the site as a volunteer unless you were 
with the Red Cross or one of the other volunteer groups, the 
Salvation Army. You could not work onsite unless you were with 
one of the companies.
    I happened to go with AMAC which was doing the north tower, 
because that is where I was told my brother went down. At that 
time, guys were thinking there were still some survivors, you 
know, a week later, 2 weeks later. If you could find somebody, 
maybe they were trapped in a cavity. Guys did not take breaks 
to go to the trailer to eat, so I went to the boat that was 
parked on the dock and got the chef to make trays of food that 
I brought out to the crane.
    Mr. Nadler. Getting back to the respirators.
    Mr. Libretti. I am getting back to that. Where we sat and 
we ate, up until October 25th, everybody ate, firemen, rescue 
guys, and nobody said nothing about a respirator until after 
October 25th. And 1 day we are sitting there eating and the 
Commissioners who came over said, ``You can't eat out here.'' 
And we said, ``Since when?'' he said, ``Since now.''
    I said, ``We have been doing this for over a month.''
    ``Well, you can't do it anymore.''
    Mr. Nadler. Let me ask you one other question, you said 
that the state of art decontamination tent that was built on 
the site was used strictly by privileged workers--I'm sorry, 
that's Mr. Mount's testimony.
    Thank you, Mr. Libretti.
    Mr. Mount, you said that you continued to work with paper 
masks until October 26th. You asked for respiratory equipment 
and you couldn't get it.
    Who did you ask; do you know?
    Mr. Mount. Well, we asked pretty much everybody. I spent 2 
weeks downtown. The rest of the time I was in the landfill. And 
there was a tent there with supplies in it and the police 
department handed out whatever it was. And every time we went, 
which was daily, to get--the respirator they gave me in 
October, those filters were good for a half shift. So I got one 
filter change in 4 months.
    Mr. Nadler. This is after October 26th?
    Mr. Mount. Yes. The respirators were useless.
    Mr. Nadler. And the Fresh Kills site was supervised by the 
city or by the Federal Government.
    Mr. Mount. If you were a private contractor or came in 
privately, you were controlled by FEMA and OSHA, but I worked 
for the city of New York, almost like a kind of private 
contractor, because I don't have same benefits as a city 
worker.
    Mr. Nadler. So it was the city people who were basically in 
charge there?
    Mr. Mount. The city was in charge of me. FEMA and OSHA had 
nothing to do with me.
    Mr. Nadler. But they were in overall charge?
    Mr. Mount. Yes. Except for the city workers.
    Mr. Nadler. OK.
    Mr. Mount. And can I just say something.
    Mr. Nadler. Please.
    Mr. Mount. I worked for months in a restricted area. I can 
tell you what it says, ``No work in here without gloves, 
goggles, tie backs, boots,'' the whole deal. I worked in that 
spot 12 hours a day from when I got back, which was probably 
the end of September, until I went in the hospital. I worked in 
that restricted box, every single day, with OSHA and FEMA going 
by with monitors, and never once was told or asked--or 
everybody I worked with had all that equipment.
    Mr. Nadler. Thank you.
    Mr. Libretti, you said you asked lawyers repeatedly to take 
your case and they wouldn't do that. Very quickly, did they 
give you reasons why they wouldn't take your case?
    Mr. Libretti. Yes. Because it was so late, they couldn't 
adequately look out for me and I could sue them.
    Mr. Nadler. Because it was too late, that's why?
    Mr. Libretti. Right.
    Mr. Nadler. Final question, Dr. Melius, your testimony, in 
effect, is that by canceling the Business Center contract, the 
administration is doing the proper health care response for 
basically all 9/11 responders across the country?
    Dr. Melius. Correct.
    Mr. Nadler. Thank you very much.
    The last question I will ask Mr. Libretti and Mr. Fraone, 
do you think it's fair to say that you have been betrayed by 
the government?
    Mr. Libretti. Betrayed, I don't think--I think this.
    Mr. Nadler. Let down by the government.
    Mr. Libretti. Let down, but I understand that there are 
people trying to get over, you know what I mean, and you have 
to be cautious. But when the people who have the proof--you 
should eliminate them from the problems, shouldn't you?
    Mr. Nadler. Thank you.
    Mr. Fraone.
    Mr. Fraone. As a civil servant, I have worked for the 
government; they provide the roof over my head for the past 27 
years. I don't think I was betrayed. I don't think they did 
what they should to followup on this issue though.
    Mr. Mount. Are you asking me?
    Mr. Nadler. Yes.
    Mr. Mount. I was definitely betrayed. Absolutely. There is 
no reason why I should be sick. No reason at all. It was just--
I didn't get sick in the first 3 days. It was just constant 
abuse and neglect. I worked with people in complete uniforms 
and complete haz mat gear, and I don't believe they are sick 
and I think we were abused.
    Mr. Nadler. Thank you. And thank you, Mr. Chairman.
    Mr. Towns. Thank you, Congressman Nadler.
    Congressman Fossella.
    Mr. Fossella. Just one quick observation and one question. 
I think it's legitimate to ask the question that was asked 
earlier, what happens in the event of the next tragedy? Will as 
many be willing to rush here?
    As someone who represents Staten Island and part of 
Brooklyn, and I have had the privilege and have gotten to know 
many firefighters, many responders, who do what they do, I 
think, in many instances because that's the nature of their 
being; they are selfless individuals. But by and large, what I 
find is, they believe, even if they were willing to sacrifice 
or do give the ultimate sacrifice, that there will be something 
in place to take care of their families.
    Plenty of guys I know will say ``As long as my family is 
taken care of, I will be all right.'' And that is, I think, the 
critical question. There will be many who do it, but I think 
what hasn't happened in many instances, we are not taking care 
of those families. We are not giving them piece of mind that I 
think is deserving of them. And I think that is the fundamental 
question, that common sense will dictate that maybe next time 
they will realize that my family is not going to be taken care 
of, that my financial well-being is going to be put in 
jeopardy, why should I do this?
    So I think we have to come to grips to answer that, not 
just now, but in the future.
    With respect to, and I think it's been touched upon but, I 
think it is important to note, ethically and how the grants are 
currently written. Can you walk us through that process of the 
notification in light of the fact that the Red Cross has 
announced that they will no longer be providing coverage? What 
will happen over the next--here we are the end of January, the 
next 2 to 3 months, for those currently receiving under this 
umbrella?
    Dr. Melius. What will happen--the usual process for those 
providing care for an individual patient or institutionally 
through a program, is you are ethically, technically obligated 
as a medical provider to let those patients know if for some 
reason you will no longer be able provide them with that care 
or provide that treatment under the current way that you are 
providing it, that you are being reimbursed for that care. So 
what will happen now with the treatment program is very shortly 
they will calculate how much money they have left from the Red 
Cross. If they have few hundred thousand dollars to cover 
approximately 400 to 500 patients, I believe, under that 
treatment program, they will need to send out letters sometime 
within the next 30 to 60 days to all those people that are 
covered by their current treatment program through the Red 
Cross and administered through the American Organization of 
Occupational Environmental Health Clinics. They will send out 
the letters notifying people that they can no longer provide 
care that will be paid for by the Federal Government and those 
people will have to either seek other ways of paying for that 
care or other providers to provide that care.
    Similarly to the treatment, with the monitoring program, 
that ends in June. Again, that's not a single exam; that is 
repeated exams every 12 to 18 months. They will need to--that 
program will need to notify each individual person in that 
program that they will no longer be able to provide care.
    This was even discussed when the treatment program was 
first funded. Dr. Agwunobi came here and wanted to be ready to 
send letters already. So this is a usual part of the process. I 
think what's important is how disruptive and difficult it is 
for people who are relying on that care. They have come to 
trust their physicians. They are getting very good care, and 
they now have to seek out other sources of care. Even for us as 
individuals, you know how disruptive it is to change providers. 
Think of if: you are very ill and relying on this to really 
keep you alive and take care of you. So this will be very, very 
difficult.
    Mr. Fossella. Other than the disruption and the notion that 
there could be real discontinuance of services of physician 
providers, what will have to happen in order for that not to 
occur?
    Dr. Melius. In order to prevent that, the people running 
that program would need to feel that there was either an 
alternative mechanism being set up, which is what this Business 
Processing Center was. But, to actually see us develop this 
contract, the timing of this contract to be able go in place 
and provide that care would have avoided this disruption that 
will take place in March or April of this year for those in the 
national treatment program. It could have been implemented in 
time, so that could have avoided sending the letters AOOEHC is 
sending now and this new business entity would be providing and 
coordinating that care.
    Similarly for the monitoring program--similarly the 
disruption to any of the current Centers of Excellence. This 
would have been avoided. This would have provided an umbrella 
mechanism for payment that would cover the whole program and 
assure that we could have avoided these disruptions, as long as 
there was adequate Federal funding for the program.
    Mr. Fossella. My time is up. Thank you.
    Mr. Towns. Thank you.
    Let me just sum it up. Dr. Melius, I have great admiration 
and respect for you. You have been around for a lot of years 
and have done a lot of great things. I want to ask you a couple 
of questions.
    First of all, if they had the money, they would not still 
be able to get the insurance because of the preexisting 
condition. So, even if they had the money, they would still be 
in trouble in terms of getting coverage?
    Dr. Melius. Correct. Providing coverage through private 
health insurance is not an adequate substitute. The private 
health insurance also does not cover work-related conditions. 
Medicare does not cover work-related conditions. Whenever a 
health provider fills out an insurance form, the first question 
near the top is: Is this condition due to an automobile 
accident? Is it a work-related condition? Check that off, no 
coverage.
    And insurance agencies or even union health and welfare 
funds--the health insurance fund is obligated, you know, they 
have a fiduciary responsibility not to provide care or 
reimbursement for work-related conditions. So there is no 
substitute other than a very slow and a very difficult workers' 
compensation process in order to be able to provide coverage. 
And what happens there is that when that coverage is delayed or 
disrupted or is more difficult. People will just get sicker and 
we will have more and more people becoming disabled and unable 
to work, when we could have prevented it by providing good 
medical services in a timely fashion.
    Mr. Towns. My last question, Dr. Melius. In your experience 
working for the State and Federal Government agencies, have you 
ever known a situation where a contract was stopped 6 days 
before and said that the reason they stopped it was due to the 
fact that there was inadequate interest?
    Dr. Melius. The only time I've ever personally seen that or 
experienced that so close to the contract--the applications 
being due--the only time I have seen it is when, for some 
reason the program is totally discontinued in a new budget, but 
certainly not when there was funding available. This contract 
had a lot of flexibility in terms of different parts of it 
could have been funded, other parts could have been implemented 
later.
    So in these circumstances, I just can't imagine that there 
is a rational reason for stopping this contract. It is not the 
way government should run, or in my experience, the way that 
you manage this type of program. I have never seen this level 
of mismanagement, stopping a program in its tracks without an 
alternative in place.
    Mr. Towns. Let me thank all of you for your testimony. I 
really want to thank you--yes, Mr. Libretti?
    Mr. Libretti. I just want to say, thank you for being here, 
but I would like to point out that there are people in the 
government that did do the best that they could with what they 
had. You know, not everybody was neglectful. I don't want that 
to be the end result of the hearing.
    Mr. Towns. We appreciate your comments. We definitely do, 
and, of course, we recognize that some people in government did 
go beyond the call of duty. But I want you to know that I 
cannot overlook the fact that there is an empty chair there, 
that HHS did not come to take a seat, and that bothers me.
    When I hear the fact that the contract, 6 days before, was 
canceled, that bothers me. And when I hear the fact that they 
did not respond, that bothers me. And the fact that this has 
been going on for 6 years, that they have been stalling. Now, I 
have not been the Chair of this committee for 6 years, but I 
must admit, if I had been the Chair for 6 years, you can be 
assured that they would come to the table before now. And 
that's something that I am telling you, that you can be assured 
that they will respond.
    We have subpoena power, and let me tell you, if I have to 
go after everything, whatever it is, we are going to get to the 
bottom of this. We are going to do it, because I have listened 
to the testimony coming from you and, of course, you represent 
so many others out there who are not able to come here to talk, 
but you are speaking for them.
    And I want you to know, we are hearing you. We are hearing 
you. We are hearing you. Thank you so much.
    The subcommittee is adjourned.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
